                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A11120087                                                                      Page 1 of 1



                 We assessed an allegation of falsification related to publication 1 of the results of a
         calculational model. A graduate student 2 and a faculty member3 disagree about the impact of
         possible incorrectly coded variables in the model output. The variables alleged to be incorrect
         are described only generally in the complaint, the variables seem to have been manually reset on
         an ad hoc basis, and no link has been established between incorrectly coded variables and the
         publication. 4 The differences in opinion and interpretation evident in this case resolve through
         the development of expertise; such differences are not research misconduct. There is no
         evidence that published results were falsified by omission of descriptive details of the model.

                   This case is closed with no further action taken.




NSF OIG Form 2 (11102)
